                                       SOCIAL SECURITY
MEMORANDUM

Date:      July 3, 2002                                                       Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Effectiveness of the Social Security Administration's Decentralized Correspondence
           Process (A-03-01-11034)


           Attached is a copy of our final report. Our objective was to evaluate the effectiveness of
           the Social Security Administration's decentralized correspondence process, in terms of
           both the number of wage items reinstated under the process and the timeliness of these
           reinstatements.

           Please comment within 60 days from the date of this memorandum on corrective action
           taken or planned on each recommendation. If you wish to discuss the final report,
           please call me or have your staff contact Steven L. Schaeffer, Assistant Inspector
           General for Audit, at (410) 965-9700.




                                                           James G. Huse, Jr.


           Attachment
          OFFICE OF
   THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


    EFFECTIVENESS OF THE SOCIAL
     SECURITY ADMINISTRATION'S
  DECENTRALIZED CORRESPONDENCE
             PROCESS


    July 2002   A-03-01-11034
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

  m Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
  m Promote economy, effectiveness, and efficiency within the agency.
  m Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
  m Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
  m Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

  m Independence to determine what reviews to perform.
  m Access to all information necessary for the reviews.
  m Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                      Executive Summary
OBJECTIVE
Our objective was to evaluate the effectiveness of the Social Security Administration's
(SSA) decentralized correspondence (DECOR) process, in terms of both the
percentage of wage items reinstated under the process and the timeliness of these
reinstatements.

BACKGROUND
Title II of the Social Security Act requires that SSA maintain the reported earnings
records of individuals. SSA uses these reported earnings to determine whether an
individual is entitled to receive retirement, survivors, disability and health insurance
benefits and to calculate benefit payment amounts. The earnings records show the
amount of earnings reported by the worker’s employer (or the self-employed person)
and the periods for which the earnings were reported. However, each year SSA
processes millions of earnings items that cannot be posted to wage earners' records
because the earnings lack a valid Social Security number (SSN) and/or name. These
unmatched records accumulate in SSA's Earnings Suspense File (ESF).

The purpose of the DECOR process is to contact individuals to resolve SSN and/or
name discrepancies on reported earnings. The correspondence provides the wage
earner with information about the reported name/SSN and wage amount, and requests
that the reported information be reviewed, verified or corrected where possible, and
returned. While SSA sends most of the DECOR notices to employees, SSA sends a
notice to the employer when an employee's address is unavailable.

Returned notices containing a reply are matched against SSA's internal records and the
ESF. If the resubmitted name/SSN information matches SSA's records, the wage item
is reinstated from the ESF to the earner's record. If the provided information is still
invalid, no further correspondence is sent and items remain in the suspense file
awaiting additional edit processes.

RESULTS OF REVIEW
While only 9.5 percent of our sample of Tax Year (TY) 1998 suspended wage items
were reinstated through all reinstatement processes at the time of our audit, the
DECOR process was one of the more effective means for identifying the owners of
these suspended wage items. While our audit found that the DECOR process
reinstated only 3.5 percent of the suspended items in our sample, it was the third most
effective method for reinstating our sample items of SSA’s seven primary manual and
automated reinstatement processes. SSA data on reinstatement activity indicated that
the DECOR process was the second most effective process for reinstating wage items
during TYs 1994 through 1998. The overall effectiveness of the DECOR process


Effectiveness of SSA's Decentralized Correspondence Process (A-03-01-11034)                i
increases to 10 percent when based upon reinstated wages in our sample rather than
reinstated wage items. Our review also indicated that it can take as long as 1 year to
resolve suspended wages through the DECOR process.

We also found that the DECOR process currently overlaps with other validation
processes, such as educational correspondence to employers. In addition, the DECOR
process fails to follow-up on incomplete returned notices by informing individuals that
their earnings issue remains unresolved. As a result, these individuals may erroneously
infer that SSA has corrected the problem.

CONCLUSIONS AND RECOMMENDATIONS

SSA could further improve the effectiveness of the DECOR process by minimizing
duplication with other validation techniques and following up with the earners on
unresolved DECOR responses. If SSA eliminates the DECOR notices going to
employers and, instead, utilizes these resources to follow up on incomplete or incorrect
responses, the Agency could improve the overall effectiveness of the DECOR process.
SSA could also monitor the continued effectiveness of the DECOR process by
reviewing the annual DECOR reinstatements in relation to other reinstatement
processes.

To improve the effectiveness of the DECOR process, we recommend that SSA:

·   Remove employer notices from the DECOR process once the employer educational
    correspondence process has been fully implemented so employers are informed of
    all wage items with name/SSN mismatches.

·   Improve follow-up on unresolved DECOR responses, such as sending a second
    notice requesting that individuals visit their local SSA field office to discuss the
    outstanding earnings issue. This would alert the individual that his or her wages
    remain in suspense and provide one more avenue for resolution of the suspended
    earnings.

·   Periodically analyze annual reinstatement rates and volumes to assess the overall
    effectiveness of the DECOR process and its effectiveness in relation to other
    reinstatement processes. This information should be maintained for management
    information purposes.

AGENCY COMMENTS
Regarding Recommendation 1, SSA believes a more in-depth analysis should be
conducted before the Agency stops sending DECOR notices to employers. Over the
past several years, SSA has implemented a number of initiatives to enhance the
earnings posting process, and beginning with TY 2001, SSA sent educational
correspondence notices to all employers with name/SSN mismatches. SSA will



Effectiveness of SSA's Decentralized Correspondence Process (A-03-01-11034)                ii
evaluate this recommendation in conjunction with their ongoing efforts to improve the
earnings posting process and expects to make a final decision by the end of this
calendar year.

Regarding Recommendation 2, SSA does not believe additional follow-up efforts are
warranted at this time. The Agency’s opinion is based on its experience with the
follow-up efforts related to (1) thousands of letters sent to people whose DECOR
responses provided the same information as the original reports and (2) attempts to call
a sample of employees who had given telephone numbers on their DECOR responses.
SSA considered both projects to be unproductive.

SSA agreed with Recommendation 3, and stated that the Agency should maintain
DECOR reinstatement management information.

OFFICE OF THE INSPECTOR GENERAL RESPONSE
While we understand SSA plans to conduct more in-depth analysis of DECOR notices
to employers, our recommendation related to these notices is consistent with previous
reviews of the DECOR notices as well as SSA's own prior studies. We provide details
related to these reviews in the body of the report. In addition, greater name/SSN
mismatch reporting under educational correspondence to employers should further
reduce the need for separate DECOR mailings to this same group. We look forward to
receiving SSA's final decision in this area.

We continue to believe our recommendation related to additional follow-up efforts could
assist SSA in resolving suspended wages. Although SSA has previously studied
follow-up contacts with wage earners—and noted they were unproductive—it is unclear
whether SSA actually determined if the letters led to later field office visits to correct the
wage items. Furthermore, although SSA states its telephone calls led to a "small
reinstatement rate," the sample was limited to individuals who provided their telephone
numbers. We continue to believe a second notice requesting that the individual visit his
or her local SSA field office to discuss the earnings issue would alert the individual that
the wages remain suspended and provide one more avenue for resolution of the
earnings.




Effectiveness of SSA's Decentralized Correspondence Process (A-03-01-11034)                  iii
                                                         Table of Contents
                                                                                                             Page

INTRODUCTION.....................................................................................................1

RESULTS OF REVIEW ..........................................................................................5

 Effectiveness of the DECOR Process ...................................................................5

 Timeliness of the DECOR Process .......................................................................8

 DECOR Versus Other Validation Techniques .......................................................9

 Improving the DECOR Process...........................................................................11

CONCLUSIONS AND RECOMMENDATIONS.....................................................14


APPENDICES

APPENDIX A – Decentralized Correspondence Notice

APPENDIX B – Decentralized Correspondence Flowchart

APPENDIX C – Agency Comments

APPENDIX D – OIG Contacts and Staff Acknowledgments




Effectiveness of SSA's Decentralized Correspondence Process (A-03-01-11034)
                                                                  Acronyms
    AWR                Annual Wage Reporting

    DECOR              Decentralized Correspondence

    ESF                Earnings Suspense File

    FY                 Fiscal Year

    IRS                Internal Revenue Service

    MEF                Master Earnings File

    OIG                Office of the Inspector General

    SSA                Social Security Administration

    SSN                Social Security Number

    TY                 Tax Year

    USPS               United States Postal Service

    W-2                Wage and Tax Statement

    WBDOC              Wilkes-Barre Data Operations Center




Effectiveness of SSA's Decentralized Correspondence Process (A-03-01-11034)
                                                                    Introduction
OBJECTIVE
Our objective was to evaluate the effectiveness of the Social Security Administration's
(SSA) decentralized correspondence (DECOR) process, in terms of both the
percentage of wage items reinstated under the process and the timeliness of these
reinstatements.

BACKGROUND
Title II of the Social Security Act requires that SSA maintain the reported earnings
records of individuals.1 SSA uses these reported earnings to determine whether an
individual is entitled to receive retirement, survivors, disability and health insurance
benefits and to calculate cash benefit rates. The earnings records show the amount of
earnings reported by the worker’s employer or the self-employed person and the
periods for which they were reported. However, each year SSA processes millions of
earnings items that cannot be posted to wage earners' records in the Master Earnings
File (MEF) because the earnings lack a valid Social Security number (SSN) and/or
name. These unmatched records accumulate in SSA's Earnings Suspense File (ESF).

The purpose of the DECOR process is to contact individuals to resolve SSN and/or
name discrepancies on reported earnings. The correspondence provides the wage
earner information about the reported name/SSN and wage amount and requests that
the reported information be reviewed, verified or corrected where possible, and
returned. While SSA sends most of the DECOR notices to employees, SSA sends a
notice to the employer when an employee's address is unavailable.2 (See Appendix A
for an example of a DECOR employee notice.)

Returned notices containing a reply are processed in the Wilkes-Barre Data Operations
Center (WBDOC) and reviewed to determine whether the wage item can be removed
from the ESF and reinstated to the appropriate earner's account on the MEF. If the
provided information is still invalid, no further correspondence is sent and items remain
in the suspense file awaiting additional edit processes. (See Appendix B for a flowchart
of the DECOR process.)

1
  "On the basis of information obtained by or submitted to the Commissioner of Social Security, and after
such verification thereof as the Commissioner deems necessary, the Commissioner of Social Security
shall establish and maintain records of the amounts of wages paid to, and the amounts of self-
employment income derived by, each individual and of the periods in which such wages were paid and
such income was derived and, upon request, shall inform any individual or his survivor, or the legal
representative of such individual or his estate, of the amounts of wages and self-employment income of
such individual and the periods during which such wages were paid and such income was derived, as
shown by such records at the time of such request." 42 U.S.C. § 405(c)(2)(A).
2
 SSA mails three different types of notices: (1) Form SSA-L3365-C1 is sent to the employee; (2) Form
SSA-L4002-C1 is sent to the employer; and (3) Form SSA-L2765-C1 is sent to a self-employed individual.


Effectiveness of SSA's Decentralized Correspondence Process (A-03-01-11034)                                 1
The ESF contains over 227 million Wage and Tax Statements (W-2) and $328 billion in
wages accrued between Tax Years (TY) 1937 and 1999 that could not be matched to
individuals' earnings records. During TY 1999 alone, the ESF grew by 8.3 million W-2s
and $39.4 billion in wages.3 Approximately 96 percent of the ESF wages relate to TYs
1970 through 1999. Suspended wages can affect an individual’s eligibility for retirement
and disability benefits.

Prior Reviews of DECOR

We analyzed several prior reports and management letters involving the DECOR
process. These reports and letters contained specific recommendations that are listed
below.

Contractor Review of the ESF

A contractor hired by SSA to review the ESF issued its final report on July 18, 2001.
The purpose of the contractor’s review was to determine whether SSA should modify its
existing practices in managing the ESF. Among a number of recommendations related
to the ESF, the report recommended that SSA should redesign its DECOR notice and
send the notice after employers are given an opportunity to fix wage errors.

SSA Workgroup on Error Notices

The Annual Wage Reporting (AWR) Error Notices Workgroup—an inter-component
team—was chartered by SSA to review and improve notices to employers and
employees about wage reporting problems. The workgroup was responsible for
reviewing all name/SSN-related notices currently sent to employers and employees for
their completeness, efficiency and effectiveness. This effort included a review of both
content and language changes to the notices, the need for additional notices, and the
possible need to discontinue notices. On December 30, 1999, the workgroup issued its
report containing the following DECOR-related recommendations:

      ·   Prepare a DECOR database after all other reinstatement activities and after the
          recommended 90 days that allows for the employer to respond to the educational
          correspondence 4 has elapsed;

      ·   Send DECOR notices to employees only; and

3
    ESF figures provided by Office of System Design and Development as of October 1, 2001.
4
  Under the educational correspondence process, a notice is sent to employers after the AWR process
that includes SSNs for unmatched wage records. At the time the AWR Error Notices Workgroup
conducted its study, SSA sent educational correspondence to employers if they filed a wage report with
11 or more W-2s in error and had name/SSN mismatches equal to 10 percent or more of the entire wage
report filed. In addition, the correspondence included the first 250 name/SSN mismatches. A separate
recommendation in its report stated that SSA should send educational correspondence with a full list of
name/SSN mismatches to all employers.


Effectiveness of SSA's Decentralized Correspondence Process (A-03-01-11034)                           2
    ·   Add language to the notice directing the employee to contact the employer
        regarding corrected name/SSN information.

Previous Office of the Inspector General Audit

An earlier Office of the Inspector General (OIG) audit commented on the DECOR
process.5 This review reported that DECOR was only marginally effective in correcting
the name and SSN errors that prevented the earnings from being credited to the
individual's earnings record. The 1991 OIG report made a number of
recommendations, including:

    ·   Screen undeliverable mail and remail notices with forwarding addresses;

    ·   Design postcards or form letters with several different statements to follow up on
        incorrect employer and employee responses;

    ·   Revise the DECOR forms, including adding instructions to the employee to notify
        the employer of the discrepancy and to request the employer make the
        necessary corrections; and

    ·   Initiate an educational program to acquaint employers and the public about
        proper name reporting standards.

SCOPE AND METHODOLOGY
To accomplish our objective, we:

    ·   Visited WBDOC to perform a walk-through of the DECOR process and review
        available workload data to determine the overall effectiveness of the DECOR
        process.

    ·   Visited two SSA field offices and the Philadelphia tele-service center to
        determine their involvement in the receipt and timeliness of DECOR earnings
        corrections input.

    ·   Obtained a copy of the 1998 DECOR file from SSA, which contained
        7,280,415 wage items, with a corresponding value of $36.1 billion dollars. This
        file contains correspondence that was mailed to employees and employers
        related to wage reports submitted during the TY 1998 reporting period.6

5
 Better Controls Over Correspondence Process Would Help Post More Earnings to Wage Earner's
Accounts, (HHS/OIG A-13-89-00040), March 1991.
6
 Although the majority of the DECOR file related to TY 1998 wages, some wages related to earlier tax
years were also reported to SSA during the same period and placed in this file. However, for the
purposes of this report, we are referring to the DECOR file as a TY 1998 file.


Effectiveness of SSA's Decentralized Correspondence Process (A-03-01-11034)                            3
       Earnings items identified as self employment income for TY 1998 were not
       included in this population since self employment data were contained in a
       separate file, and the data provided was determined to be incomplete.

   ·   Selected a random sample from a population of 7,280,415 wage items, totaling
       over $36.1 billion. Our sample consisted of 200 wage items with an associated
       dollar value of $1,072,300.

   ·   Determined for each sampled item whether the wages remained in suspense
       and, if reinstated, verified the amount and timing of any reinstated wages.

   ·   Requested DECOR production statistics from the WBDOC staff to include:
       (1) correspondence generated and mailed; (2) processed receipts;
       (3) undeliverables; and (4) remailables.

   ·   Requested an extract from SSA's ESF Reinstates File for TYs 1994 through
       1998 showing earnings corrections due to the DECOR process. This file
       contains only the most recent reinstatement when multiple records are reinstated
       for the same Employer Identification Number, name and SSN. However, in this
       report we are using the most recent reinstatement activity, which tends to be
       more accurate than older reinstatements.

   ·   Obtained an Epoxy Accounting Statistics Report showing summary DECOR
       reinstatement activity for TYs 1994 through 1998. Epoxy is a system designed to
       provide management information on the Earnings Record Maintenance System.

   ·   Reviewed pertinent sections of SSA's Program Operations Manual System.

   ·   Requested data on contractor expenses and other DECOR processing
       expenses.

   ·   Requested prior studies or audits that have reviewed the DECOR process.

   ·   Interviewed SSA staff to gain an understanding of the DECOR process.

Our audit did not include a test of information systems to verify the completeness and
accuracy of the DECOR or Reinstates File data provided by SSA. However, we
expanded our analytical procedures to assess the reasonableness of the data
presented in TY 1998. Our review of DECOR timeliness was limited since the process
was modified after TY 1998. Our work was conducted at SSA's Data Operations Center
in Wilkes-Barre, Pennsylvania and at SSA Headquarters in Baltimore, Maryland. The
fieldwork was conducted between March 2001 and December 2001. The SSA entity
responsible for the maintenance of the ESF is the Office of Central Operations within
the Office of the Deputy Commissioner of Operations. Our review was conducted in
accordance with generally accepted government auditing standards.



Effectiveness of SSA's Decentralized Correspondence Process (A-03-01-11034)            4
                                               Results of Review
While only 9.5 percent of our sample of TY 1998 suspended wage items were
reinstated through all reinstatement processes at the time of our audit, the DECOR
process was one of the more effective means for identifying the owners of these
suspended wage items. Approximately 3.5 percent of the items and 10 percent of the
associated wages in our sample were reinstated through the DECOR process. Our
review also demonstrated that it can take as long as 1 year for SSA to resolve
suspended wages through the DECOR process. Both the results of our sample and our
review of previous year reinstatements indicated that the DECOR process remains one
of the most effective processes SSA has for reinstating wages. However, we found that
the DECOR process currently overlaps with other validation processes and fails to
follow-up on incomplete returned notices.

EFFECTIVENESS OF THE DECOR PROCESS
Our review of 200 suspended wage items in the TY 1998 DECOR file found 19 wage
items (9.5 percent) were reinstated through SSA's validation techniques (see figure 1),
including:

    ·   7 items (3.5 percent) reinstated through the DECOR process, representing
        $105,070 in wages;7 and

    ·   12 items (6 percent) reinstated though processes other than DECOR,8
        representing $181,141 in wages.

                           Figure 1: Review of 200 TY 1998 Wage Items

                                                                 Reinstated
                                                              through DECOR
                                                                    3.5%



                                                                Other Reinstate
                                                                     6.0%




                            Still in Earning
                            Suspense File
                                  90.5%




7
  Although 10 percent of the DECOR notices in our sample were sent to employers, none of the DECOR
reinstatements related to employer notices.
8
 Other processes included reinstatements from the IRS, earnings after death, and the SWEEP operation.
These operations are defined later in this report.


Effectiveness of SSA's Decentralized Correspondence Process (A-03-01-11034)                          5
We also found the average wage reinstated through DECOR was almost 3 times
greater than the average wage in our sample. While DECOR reinstatements averaged
$15,010 in wages, the 200 items in our sample averaged $5,362 in wages. As a result,
while the 7 DECOR reinstatements represented 3.5 percent of the wage items in our
sample, they represented 10 percent of the wages. Hence, for our sample, DECOR
was more effective in reinstating wages (i.e., dollars) than in reinstating wage items.

DECOR Effectiveness Over the Past 5 Years

During Fiscal Years (FY) 1995 through 1999, SSA mailed over 32 million DECOR
notices to the public. Of the mailed DECOR notices, SSA reported:

   ·   the WBDOC received and processed responses on approximately 5 million
       notices (15 percent);

   ·   approximately 8 million notices (25 percent) were deemed "undeliverable" due to
       an incomplete address or no forwarding address;

   ·   about 230,000 notices (1 percent) were re-mailed based on a new forwarding
       address from the United States Postal Service (USPS); and

   ·   approximately 19 million notices (59 percent) were never returned to SSA (see
       figure 2 below).


                                   Figure 2: DECOR Production Statistics
                                             8
                   Number of DECOR Notices




                                             7
                                             6
                        (In Millions)




                                             5
                                             4
                                             3
                                             2
                                             1
                                             0
                                                 FY1995   FY1996    FY1997       FY1998   FY1999
                                                                   Fiscal Year

                                 Letters Generated            Letters Returned      Undeliverable

                      Note: The number of notices remailed was too small to show in this figure.




Effectiveness of SSA's Decentralized Correspondence Process (A-03-01-11034)                         6
Although SSA was unable to provide similar statistics for the reinstated items by FY, we
reviewed the last 5 years of DECOR reinstatements on SSA's Reinstates File to
determine whether the volume of reinstates was consistent with previous years. For
TYs 1994 through 1998, the DECOR process was able to reinstate an average of
346,000 wage items annually (see figure 3). The DECOR process was more successful
in associating earners with suspended wages in earlier years. In TY 1998, DECOR
reinstatements were below the 5-year average.9 SSA staff was unable to determine
why TY 1998 reinstatements were below the 5-year average.


                          Figure 3: Wage Items Reinstated by DECOR
                                    (TYs 1994 through 1998)


                        1998                        212,971


                        1997                                         337,930
             Tax Year




                        1996                                               399,140


                        1995                                                    445,855


                        1994                                         338,360

                               0   100,000    200,000    300,000      400,000    500,000
                                             Wage Items Reinstated



Although our sample results showed a 3.5 percent reinstatement rate for the items we
examined in the TY 1998 DECOR file, SSA's Reinstates File indicates the average
reinstatement rate over the past 5 years has been 5 percent. SSA records also indicate
that of the approximately 32 million DECOR notices for TYs 1994 through 1998, about
1.7 million (5 percent) resulted in a reinstatement of wages.10 A summary of SSA's
reported results for 5 years of reinstatement efforts is included in figure 4 below.



9
  The TY 1998 DECOR figure from SSA's Reinstates File is consistent with our sample results. The
figures indicate that the effectiveness of DECOR in reinstating items has declined over time. SSA staff
could not explain the reason for the reduction in DECOR reinstates since TY 1995. We discuss this issue
later in the report under the section entitled "DECOR Versus Other Validation Techniques."
10
   Although figures 2 and 3 represent slightly different time periods, each TY is generally processed in the
first 9 months of the following calendar year. Hence, in the above example TY 1994 DECOR notices
were processed in the last 9 months of FY 1995. SSA also provided Epoxy accounting data on DECOR
reinstatements for the same period, indicating the reinstatement rate could be higher. However, we were
unable to confirm this data for the period covered. As a result, we decided to use the Reinstates File data
here, as we did throughout the report, to compare the DECOR process with other edit processes.


Effectiveness of SSA's Decentralized Correspondence Process (A-03-01-11034)                               7
                    Figure 4: Five Years of DECOR Processing
                                 (TYs 1994-1998)
                                    Reinstatements
                                          5%
                                                      Incomplete
                                                       Response
                            Remailables                  10%
                               1%



                                                                Undeliverable
                                                                    25%




                            No Response
                                59%




TIMELINESS OF THE DECOR PROCESS
Our review indicated that SSA required as long as 1 year to resolve TY 1998
suspended wages through the DECOR process. Our analysis of the DECOR
reinstatements in our sample indicated that five of the TY 1998 wage items were posted
between September 1999 and January 2000. Two additional items were not posted
until August 2001, but it is unclear whether this reinstatement was due to a DECOR
notice sent in TY 1998 or TY 1999.11 Assuming the employers reported their wages to
SSA by February 1999 and most of the wages were posted by September 1999, it took
anywhere from 5 months to 1 year to post all of the DECOR reinstatements in our
sample.12 We performed a limited review of DECOR timeliness since the process has
been modified since TY 1998, as we explain below.

New DECOR Notice Contractor

The timeliness and effectiveness of DECOR notices may increase due to recent
changes in the overall process. In 2000, SSA hired a contractor to assist the Agency in
improving the overall timeliness of the DECOR notices. Up until TY 1999, DECOR
notices (including those in our audit) were printed in large runs and mailed by SSA staff
located in the WBDOC. However, SSA hired a contractor to perform the printing and

11
  To avoid overestimating the DECOR processing time, our timeline assumes the sixth and seventh
reinstatements related to TY 1999 DECOR notices.
12
  This period does not include the time prior to a company reporting wages to SSA. Considering the time
between an individual earning his or her first wages and the ultimate correction of an incorrect
name/SSN, it can take as long as 25 months before earned wages are identified with the proper MEF
account. For example, in one sample case, an individual’s January 1998 wages were not correctly
posted until February 2000.


Effectiveness of SSA's Decentralized Correspondence Process (A-03-01-11034)                          8
mailing process beginning in TY 2000 (see table 1 for estimated contract volume).13
Although the transition to the new contractor actually delayed TY 1999 DECOR
mailings, SSA staff noted that the new process is working well and DECOR notices are
now going out on a weekly basis. We did not verify an improvement in timeliness since
this change in SSA’s process occurred after the period we reviewed. In addition, while
more timely notices may improve the overall DECOR process, a direct correlation with
increased reinstatements may be hard to prove. Nonetheless, additional earners may
respond to the DECOR notices if they are received earlier. For example, since earners
may move over time, an earlier notice may locate more individuals and lead to fewer
notices coming back as undeliverable.

      Table 1: Estimated TY 2000 DECOR Notice Volume Under New Contract

               Type of Notice                  Volume                Percent of Total
                                                                         Volume
              Employee                         6.3 million               75 percent
              Employer                         1.8 million               22 percent
              Self-Employed                       250,000                 3 percent
                Total                         8.35 million              100 percent

DECOR VERSUS OTHER VALIDATION TECHNIQUES
Our sample showed that the DECOR process was the third most effective for reinstating
wages in TY 1998, while SSA's records indicate DECOR was the second most effective
over the 5-year period from TY 1994 through TY 1998 when compared to SSA’s
seven primary manual and automated reinstatement processes. Based on SSA's
Reinstates File data for TYs 1994 through 1998, Single Select14 validation appears to
be the most successful reinstatement process. Single Select is the first process
performed on wage items after they go into the ESF. While DECOR was able to resolve
about 1.7 million wage items over the 5-year period, Single Select was able to reinstate
approximately 9.3 million items. In TY 1998 both Single Select and the
Internal Revenue Service (IRS) Reconciliation process15 surpassed DECOR. In the
next section we note the role of DECOR versus validation techniques in the TY 1998
sample.

13
  The contract, which includes four SSA workloads, runs from December 1, 2000 to November 30, 2001,
with two optional 12-month extension periods.
14
  Single Select assumes that the individual's reported name is correct but some mistake has been made
with the SSN. For each SSN presented, "ghost records" are created for submission to Numident for
verification. If only one single record of the many "ghost records" sent verifies to the Numident, the
presumption is accepted that the SSN on the verified record belongs with the reported item. Single
Select is the first edit process performed, and only the unresolved suspended items are sent through the
DECOR process. As a result, none of the reinstatements cited in our sample relate to the Single Select
process.
15
   The IRS reconciliation process is a comparison of IRS resolved wage items to unresolved wage items
in SSA's ESF.


Effectiveness of SSA's Decentralized Correspondence Process (A-03-01-11034)                             9
Order of Reinstatement

By analyzing the order of reinstatement in our TY 1998 sample items, we found that the
DECOR process was able to resolve suspended items not corrected through other
validation techniques. For example, of the seven items reinstated through the DECOR
process, five (71 percent) were reinstated after SSA had performed annual edit
processes such as reconciliation with the IRS data (see table 2). It is possible that the
IRS Reconciliation process resolved some items that would have otherwise been
resolved through DECOR.16 Hence, the order of SSA's edits in relation to each other
may impact each edit’s effectiveness.

                   Table 2: Order of Reinstatement Among 19 Wage Items

           Order of                   Edit Process Per                   Associated Suspended
        Reinstatement            Coding in Reinstates File                      Wages
           04/1999              Unsolicited Reinstatement                        $10,270
           06/1999              Unknown                                          $68,400
           09/1999              DECOR                                            $27,134
           11/1999              DECOR                                                $56
           12/1999              IRS Reinstate                                    $47,780
           12/1999              IRS Reinstate                                       $768
           12/1999              IRS Reinstate                                     $2,668
           12/1999              Earnings After Death (1)                          $1,584
           12/1999              IRS Reinstate                                       $360
           12/1999              IRS Reinstate                                     $1,394
           12/1999              IRS Reinstate                                       $216
           12/1999              IRS Reinstate                                    $27,170
           01/2000              IRS Reinstate                                       $940
           02/2000              DECOR                                             $1,087
           02/2000              DECOR                                            $68,400
           03/2000              DECOR                                               $132
           08/2000              Prior Reinstate (2)                              $19,591
           08/2001              DECOR                                             $3,873
           09/2001              DECOR                                             $4,388
                                   Total                                        $286,211
     Note 1: An Earnings After Death reinstatement indicates SSA believed the individual was
             deceased and put the wages in suspense until it could verify the status of the individual.
     Note 2: A Prior Reinstate is when a current mismatch is assumed to be repetitive and therefore
             automatically resolved in the same way as a similar mismatch in an earlier TY.

We also found that while the IRS Reinstatement process was the second most effective
process (after Single Select) for reinstating wage items in TY 1998, the DECOR process


16
  A review of the TY 1998 Reinstates File indicates an overall increase in IRS Reinstates when
compared to other edits. IRS Reinstates increased by 161,000 items compared to TY 1997, while
DECOR reinstates declined by approximately 125,000 items compared to TY 1997.


Effectiveness of SSA's Decentralized Correspondence Process (A-03-01-11034)                               10
was the second most effective for reinstating wages during the same period. Figures 5
and 6 show the DECOR process relative to the other validation processes in terms of
items and wages reinstated.

                        Figure 5: Sample Items by Reinstatement Code
                                                           Earnings After
                                     DECOR                     Death
                                      37%                       5%




                                 Other
                                 11%                             IRS
                                                            Reinstatement
                               Prior Reinstate                   42%
                                     5%




                          Figure 6: Sample Wages by Reinstatement Code

                                                  Earnings After
                                                      Death
                                                       1%

                               DECOR                                    IRS
                                37%                                Reinstatement
                                                                        28%




                                                               Prior Reinstate
                                                                     7%
                                                 Other
                                                 27%



IMPROVING THE DECOR PROCESS
SSA has made improvements to the DECOR process over the years. In addition to
hiring a new contractor to print and mail the notices, SSA has: (1) updated the language
in the DECOR notices; (2) remailed undeliverable notices with new forwarding
addresses; and (3) offered education programs to employers to emphasize the
importance of proper name reporting standards. However, the DECOR process
currently overlaps with other validation processes, such as educational correspondence
with employers, and fails to follow-up on incomplete returned notices.



Effectiveness of SSA's Decentralized Correspondence Process (A-03-01-11034)           11
SSA’s Changes to the DECOR Process

Earlier reviews of the DECOR process noted a need for more information to assist the
employee in resolving name/SSN errors. For example, SSA's AWR Error Notices
Workgroup17 recommended SSA add notice language directing the employee to contact
the employer regarding corrected name/SSN information. SSA has since updated the
DECOR notices. The notices now state "If you have been using an incorrect name or
Social Security number, or your employer has been reporting earnings for you under an
incorrect name or Social Security number, you must correct this information by
contacting both your employer and your local Social Security office." (See Appendix A
for a copy of the DECOR notice.)

The 1991 OIG audit18 also recommended that SSA remail all letters with forwarding
addresses provided by the USPS. SSA now remails all undeliverable DECOR with a
USPS forwarding address. Between 1995 and 1999, SSA remailed approximately
230,000 previously undeliverable DECOR notices.

Finally, the 1991 OIG report also recommended that SSA initiate an education program
to acquaint employers and the public with proper name reporting standards. SSA
provides a number of services to employers to educate them on the importance of the
name/SSN combination in their wage reporting. SSA, in conjunction with the IRS, offers
joint year-end training for employers. SSA also maintains an employer website with an
interactive presentation explaining the correct name and SSN formats for the W-2.
Furthermore, SSA maintains Employee Liaison Service Officers in each of its regions to
answer employer questions on wage reporting and other issues.

DECOR and Educational Correspondence

SSA may be able to transfer 10 percent of its DECOR workload to the employer
educational correspondence process, or about 720,000 notices for TY 1998. Currently,
in addition to sending the employer a DECOR notice, SSA also sends educational
correspondence to employers with name/SSN mismatches and asks them to correct the
information. While in the past SSA provided only 250 name/SSN mismatches for the
employer to correct, beginning in TY 2000, SSA increased the number of reported
mismatches to 500 employees. SSA staff told us that, beginning in TY 2001, the
Agency started (1) sending educational correspondence to all employers, regardless of
the number of name/SSN mismatches, and (2) providing employers with an SSA
contact where they can obtain an electronic file listing all name/SSN mismatches
submitted. With greater reporting under its educational correspondence program, SSA
may have an opportunity to eliminate the duplicative process of employer DECOR
mailings. In 1999, the AWR Error Notices Workgroup concluded that SSA could avoid
duplication by sending DECOR notices to employees only.

17
     Report of the AWR Error Notice Workgroup, SSA, December 30, 1999.
18
  Better Controls Over Correspondence Process Would Help Post More Earnings to Wage Earner's
Accounts, (A-13-89-00040), 1991.


Effectiveness of SSA's Decentralized Correspondence Process (A-03-01-11034)                    12
Our review of 200 sample items also indicated that employers are less likely to respond
to DECOR notices than employees. Although employer notices tend to be about
22 percent of the notices mailed by SSA (and represented 10 percent of our 200 sample
items), none of the seven reinstated items in our sample related to employer notices.
As far back as 1989, SSA acknowledged that employer DECOR notices have been less
productive than the employee notices. In response to the 1991 OIG report on DECOR,
SSA noted that "[DECOR] responses from individuals have been noticeably better than
those from employers."

In terms of the earlier recommendations19 to SSA that the Agency send DECOR notices
after employers are given an opportunity to fix errors, such a change would combine the
problem of duplication with additional delays in mailing the DECOR notices. As already
noted, SSA hired a new contractor for the purpose of ending this delay in notices.

Incomplete DECOR Notices

SSA has an opportunity to increase its efficiency by following up on unresolved DECOR
responses. Over the past 5 years, approximately 650,000 DECOR notices (10 percent
of the total notices mailed) were returned annually to WBDOC, but no reinstatement
action was taken. Unlike the 59 percent of the notices never returned to WBDOC, these
notices reached the intended parties but some of the reply information was either
incomplete or incorrect. However, SSA made no attempt to inform these individuals
that their earnings issue remained unresolved.

By failing to inform an individual that his or her wages remain in suspense, the individual
may be under the assumption that their earnings record has been corrected. An
additional step, such as a second notice requesting that the individual visit their local
SSA field office to discuss the earnings issue, would alert the individual that the wages
remain in suspense and provide one more avenue for resolution of the earnings.20

The 1991 OIG audit made a similar observation, and recommended that SSA design a
letter to follow up with the individual on incorrect employer and employee responses. In
response, SSA noted that the DECOR notices had been redesigned to now request that
the individual completing the notice provide a daytime telephone number to facilitate
follow-up contact. However, when we discussed this issue with SSA staff, we were
informed that current procedures do not include following up on incomplete and/or
incorrect responses.



19
  This recommendation was made by the private sector contractor in its report "Earnings Suspense File
Review - Final Report 7/18/01" and by the 1999 AWR Error Notices Workgroup.
20
  Not every unresolved DECOR response can be easily resolved. Some of the responses relate to
individuals who were never assigned SSNs.


Effectiveness of SSA's Decentralized Correspondence Process (A-03-01-11034)                         13
                                            Conclusions and
                                          Recommendations
While the DECOR process reinstated only 3.5 percent of the suspended items in our
sample, it was one of the more effective means for identifying the owners of these
suspended wage items. In fact, its overall effectiveness increases to 10 percent when
ranking by wages rather than wage items. The recent contract for printing and mailing
DECOR notices, as well as changes in the process resulting from prior reviews, may
improve its overall effectiveness and timeliness. However, SSA could further improve
the effectiveness of the DECOR process by minimizing duplication with other validation
techniques and following up with the unresolved responses. SSA could also monitor
the continued effectiveness of the DECOR process by reviewing the annual DECOR
reinstatements in relation to other reinstatement processes. If SSA were to eliminate
the DECOR notices going to employers and, instead, utilize these resources to follow
up on incomplete or incorrect responses, it appears likely that the Agency could improve
the overall effectiveness of the DECOR process.

To improve the effectiveness of the DECOR process, we recommend SSA:

1. Remove employer notices from the DECOR process once the employer educational
   correspondence process has been fully implemented so employers receive notices
   of all wage items with name/SSN mismatches.

2. Improve follow-up on unresolved DECOR responses, such as sending a second
   notice requesting that individuals visit their local SSA field office to discuss the
   outstanding earnings issue. This would alert the individual that his or her wages
   remain in suspense and provide one more avenue for resolution of the suspended
   earnings.

3. Periodically analyze annual reinstatement rates and volumes to assess the overall
   effectiveness of the DECOR process and its effectiveness in relation to other
   reinstatement processes. This information should be maintained for management
   information purposes.

AGENCY COMMENTS
Regarding Recommendation 1, SSA believes a more in-depth analysis should be
conducted before the Agency stops sending DECOR notices to employers. Over the
past several years, SSA has implemented a number of initiatives to enhance the
earnings posting process, and beginning with TY 2001, SSA sent educational
correspondence notices to all employers with name/SSN mismatches. SSA will
evaluate our recommendation in conjunction with their ongoing efforts to improve the
earnings posting process and plans to make a final decision by the end of this calendar
year.


Effectiveness of SSA's Decentralized Correspondence Process (A-03-01-11034)               14
Regarding Recommendation 2, SSA does not believe additional follow-up efforts are
warranted at this time. The Agency’s opinion is based on its experience with the
follow-up efforts related to (1) thousands of letters sent to people whose DECOR
responses provided the same information as the original report and (2) attempts to call
a sample of employees who had given telephone numbers on their DECOR responses.
SSA considered both projects to be unproductive.

SSA agreed with Recommendation 3 that the Agency should maintain DECOR
reinstatement management information. SSA will explore options to determine the best
approach to implement this recommendation in conjunction with its ongoing efforts to
improve the earnings posting process and expects to make a final decision by the end
of this calendar year.

OFFICE OF THE INSPECTOR GENERAL RESPONSE
While we understand SSA plans to conduct more in-depth analysis of DECOR notices
to employers, our recommendation related to these notices is consistent with previous
reviews of the DECOR notices as well as SSA's own past comments. In addition,
greater name/SSN mismatch reporting under educational correspondence to employers
should further reduce the need for separate DECOR mailings to this same group. We
look forward to receiving SSA's final decision in this area.

We continue to believe our recommendation related to additional follow-up efforts could
assist SSA in resolving suspended wages. Although SSA has previously studied
follow-up contacts with wage earners—and noted they were unproductive—it is unclear
whether SSA actually determined if the thousands of letters led to later field office visits
to correct the wage items. Furthermore, although SSA states its telephone calls led to a
"small reinstatement rate," the sample was limited to individuals who provided their
telephone numbers. We continue to believe a second notice requesting that the
individual visit his or her local SSA field office to discuss the earnings issue would alert
the individual that the wages remain suspended and provide one more avenue for
resolution of the earnings.

Finally, SSA's response to our recommendation regarding DECOR reinstatement
management information adequately addresses our concerns. Such a management
information system should assist SSA in assessing the overall effectiveness of the
DECOR process and its effectiveness in relation to other reinstatement processes.




Effectiveness of SSA's Decentralized Correspondence Process (A-03-01-11034)               15
                                      Appendices




Effectiveness of SSA's Decentralized Correspondence Process (A-03-01-11034)
                                                                                                 Appendix A

Decentralized Correspondence Notice
                                                                                                             Form Approved
                                                                                                          OMB No. 0960-0508

Social Security Administration
Retirement, Survivors, and Disability Insurance
Request for Employee Information
                                                                     Social Security Administration
                                                                     Data Operations Center
                                                                     P.O. Box 39
                                                                     Wilkes-Barre, PA 18767-0039

                                                                     Date:

                                                                     Sequence Number:

                                                                     Employer Number:

We need more information about earnings reported for you by the company for the tax year shown below. Please
complete the information on the back of this letter and return to us promptly. We can't put these earnings on your
Social Security record until the name and Social Security number reported agree with our records.

Company Name:
Employee's Name:
Social Security Number:
Reported Earnings:
Tax Year:

THIS IS WHAT YOU NEED TO DO

1.   If your Social Security card does not show your correct name or Social Security number, or if you have lost
     your Social Security card, contact your local Social Security Office.

2.   Compare the information shown above to your W-2(s) and your Social Security card.

3.   If the name and number shown on the Social Security card:

     - Do not agree with the information shown above, fill in the requested information on the back of this letter.
     Then mail this letter to us in the enclosed envelope.
     - Agree exactly with the information shown above, contact your local Social Security office. Do not mail this
     letter back to us.

4.   If you have been using an incorrect name or Social Security number, or your employer has been reporting
     earning for you under an incorrect name or Social Security number, you must correct his information by
     contacting both your employer and your local Social Security office.

This letter does not imply that you intentionally gave incorrect information about your name or Social Security
number. It is not a basis, in and of itself, for your employer to change your job, lay you off, fire you or take other
action against you.

Si usted necesita una traduccion de esta carta, por favor, Ilamenos al numero de telefono gratis, 1-800-772-
1213, de 7:00 a.m. a 7:00 p.m. hora del este.

Visit our website at www.ssa.gov              (Please See Reverse)             Form SSA-L3365-C1 (2-00)


Effectiveness of SSA's Decentralized Correspondence Process (A-03-01-11034)                                            A-1
REQUEST FOR EMPLOYEE INFORMATION

1. Name shown on your Social Security card (Please Print-Use Black Ink or #2 Pencil):


                     First                     M.I.                          Last

2. Social Security number on your card:

3. Does the amount of reported earnings on the front
   of this letter match any W-2 you received for the                  Yes           No (Explain)
   tax year shown?


4.   Have you ever used another name?             No No                Yes (Give other names used)



5.   Daytime phone number where you can be reached __ __ __ - __ __ __ - __ __ __ __


NOTE: Do NOT send a copy, or original, of a Form W-2c with this letter.


Penalty: Under the Internal Revenue code, the IRS may charge an employee a $50 penalty for each time the employee does not
furnish his or her correct Social Security number to his or her employer. The IRS may impose this penalty unless you can show
reasonable cause for not furnishing the correct number.

                                   The Privacy Act/Paperwork Reduction Act Statement

Section 205(a) and (c) of the Social Security Act allows us to ask for the information on this form. The information you give us
will be used to give the employee credit for earnings reported. You do not have to give us this information. However, without
the information we may not be able to give the employee credit for wages earned.

We may give this information to the Internal Revenue for tax purposes or to the Department of Justice for investigating and
prosecuting violations of the Social Security Act. Explanations about these and other reasons why information you provide us
may be used or given out are available in Social Security offices. If you want to learn more about this, contact any Social
Security office.

The Paperwork Reduction Act of 1995 requires us to notify you that this information collection is in accordance with the
clearance requirements of section 3507 of the Paper work Reduction Act of 1995. We may not conduct or sponsor, and you are
not required to respond to, a collection of information unless it displays a valid OMB control number.

                                        Time It Takes To Complete This Form
We estimate that it will take you about 10 minutes to complete this form. This includes the time it will take to read the
instructions, gather the necessary facts and fill out the form. If you have comments or suggestions on this estimate write to the
Social Security Administration, ATTN: Reports Clearance Officer, 1-A-21 Operations Bldg, Baltimore, MD 21235-0001. Send
only comments relating to our "time it takes" estimate to the office listed above. All requests for Social Security cards
and other claims-related information should be sent to your local Social Security office, whose address is listed under
Social Security Administration in the U.S. Government section of your telephone director.


Visit our website at www.ssa.gov                                                                        Form SSA-L3365-C1 (2-00)




Effectiveness of SSA's Decentralized Correspondence Process (A-03-01-11034)                                                   A-2
                                        DO NOT RETURN THIS PAGE

If you think that any action against you based on this letter is related to labor union activities or union organizing
activities, you may contact the National Labor Relations Board (NLRB), an agency of the U.S. government
(http://www.nlrb.gov). If you think that any actions against you are related to your race, color, sex religion or
national origins, you may contact the Equal Employment Opportunity Commission (EEOC). Check your local
directory for the telephone number for the nearest NLBR or the EEOC offices in your area. If you have questions or
concerns about unfair practices by your employer that may be related to your national origin or citizenship status,
you may call the Office of Special Counsel for Immigration-Related Unfair Employment Practices toll free at 1-800-
255-7688, or 1-800-237-2515 (TDD for the hearing impaired). Within the Washington, D.C. metropolitan area, call
(202) 616-5594.

If you have any other questions, you may call us toll free at 1-800-772-1213. We can answer most questions over
the phone. You can also write or visit any Social Security office. If you do call or visit an office, please have this
letter with you. The office that serves your area is located at:




If you need an interpreter to conduct Social Security business, we will apply one on request, free of charge. If you
want us to supply the interpreter, please call 1-800-772-1213 before you come to the office and tell us what
language you prefer to speak.



                                                               /s/
                                                       W. Burnell Hurt
                                                       Associate Commissioner for
                                                        Central Operations

Enclosure:
Envelope




Visit our website at www.ssa.gov                                                                Form SSA-L3365-C1 (2-00)




Effectiveness of SSA's Decentralized Correspondence Process (A-03-01-11034)                                          A-3
                                                                                                                                            Appendix B

       Decentralized Correspondence Flowchart
                                      National C om puter
                Suspended             Center (NC C) creates
                  Item s              suspended W age D atabase
                                                                                                                    New Address -
                                                                                                                      Rem ailed
                          Transm itted to C ontractor



                                                                                  R ecipient                        U ndeliverable
               Contractor                            DECO R                        R eply?                           (Destroyed)


              DEC O R notices printed
              and m ailed to em ployees/                                  N otices returned to SSA’s
                                                                                                                   N otices w ith
              em ployers                                                  W ilkes-Barre Data O perations
                                                                          C enter and Sorted                          Replies



                C ondition
                of R eply?                                                                                                                   R em ains
                                           D ata Entry O perator         Scanned/                                                          in Earnings
                                           scans/inputs inform ation
                                                                       Input R eplies                                                       Suspense
             Q uestionable &                                                                                                                    File
             dam aged
             replies sent                                                                              G ood
             for resolution                                                                            N am e/
                                                                                                       SSN?                                Posted to
                                                                                                                                            M aster
                Earnings                                                                                                                   Earnings
               Technician                                                             Scanned/input replies sent to N CC and run
                                                                                                                                              File
                                                                                      through electronic edits to determ ine if
                                                                                      reinstatem ent of w ages possible. Earning
                                                                                      technician can also m anually reinstates earnings.




Effectiveness of SSA's Decentralized Correspondence Process (A-03-01-11034)
                                                                         Appendix C

Agency Comments




Effectiveness of SSA's Decentralized Correspondence Process (A-03-01-11034)
                                         SOCIAL SECURITY
MEMORANDUM


Date:      June 10, 2002                                                       Refer To: S1J-3

To:        James G. Huse, Jr.
           Inspector General

From:      Larry Dye      /s/
           Chief of Staff

Subject:   Office of Inspector General (OIG) Draft Report “Effectiveness of the Social Security
           Administration’s Decentralized Correspondence Process” (A-03-01-11034)


           We appreciate OIG’s efforts in conducting this review. Our comments on the draft report content
           and recommendations are attached.

           Staff questions may be referred to Laura Bell on extension 52636.

           Attachment:
           SSA Response




           Effectiveness of SSA's Decentralized Correspondence Process (A-03-01-11034)                C-1
COMMENTS ON THE OIG DRAFT REPORT “EFFECTIVENESS OF THE SOCIAL
SECURITY ADMINISTRATION’S (SSA) DECENTRALIZED CORRESPONDENCE
(DECOR) PROCESS” (A-03-01-11034)

Recommendation 1

Remove employer notices from the DECOR process once the employer educational
correspondence (EDCOR) process has been fully implemented so employers are informed of all
wage items with name/Social Security number (SSN) mismatches.

SSA Comment

Although we agree with the intent of this recommendation, we believe a more in-depth analysis
should be conducted before we stop sending DECOR notices to employers. It should be noted
that in the past the Agency has implemented a number of initiatives to enhance the earnings
posting process, and beginning with tax year 2001, we sent EDCOR notices to all employers
with name/SSN mismatches. We will evaluate this recommendation in conjunction with our
ongoing efforts to improve the earnings posting process and plan to make a final decision by the
end of this calendar year.

Recommendation 2

Improve follow-up on unresolved DECOR responses, such as sending a second notice requesting
that individuals visit their local SSA field office to discuss the outstanding earnings issue. This
would alert the individual that his or her wages remain in suspense and provide one more avenue
for resolution of the suspended earnings.

SSA Comment

In the past, SSA has conducted the following follow-up efforts:

·   During a 4-year period, the Wilkes-Barre Data Operations Center (WBDOC) sent thousands
    of letters to people whose DECOR responses provided the same information as the original
    report. Despite the large volume of letters sent, WBDOC received only a few responses.

·   The WBDOC also attempted to call a sample of employees who had given telephone
    numbers on their DECOR response. Based on the small reinstatement rate as a result of the
    follow-up calls, WBDOC found this process to be unproductive as well.

Based on our experience with the follow-up efforts cited above, we do not believe additional
follow-up efforts are warranted at this time.

Recommendation 3

Periodically analyze annual reinstatement rates and volumes to assess the overall effectiveness of
the DECOR process and its effectiveness in relation to other reinstatement processes. This
information should be maintained for management information (MI) purposes.

Effectiveness of SSA's Decentralized Correspondence Process (A-03-01-11034)                    C-2
SSA Comment

We agree that we should maintain DECOR reinstatement MI. We will explore options to
determine the best approach to implement this recommendation in conjunction with our ongoing
efforts to improve the earnings posting process and plan to make a final decision by the end of
this calendar year.




Effectiveness of SSA's Decentralized Correspondence Process (A-03-01-11034)                 C-3
                                                                         Appendix D
OIG Contacts and Staff Acknowledgments
OIG Contacts

       Rona Rustigian, Director, Northern Audit Division, (617) 565-1819

       Walter Bayer, Deputy Director, (215) 597-4080

Staff Acknowledgments

In addition to those named above:

       Richard Devers, Auditor

       Carol Ann Frost, Computer Specialist

       Frank Trzaska, Auditor


For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 966-1375.
Refer to Common Identification Number A-03-01-11034.




Effectiveness of SSA's Decentralized Correspondence Process (A-03-01-11034)
                             DISTRIBUTION SCHEDULE

                                                                          No. of
                                                                         Copies

Commissioner of Social Security                                               1
Management Analysis and Audit Program Support Staff, OFAM                    10
Inspector General                                                             1
Assistant Inspector General for Investigations                                1
Assistant Inspector General for Executive Operations                          3
Assistant Inspector General for Audit                                         1
Deputy Assistant Inspector General for Audit                                  1
 Director, Data Analysis and Technology Audit Division                        1
 Director, Financial Audit Division                                           1
 Director, Western Audit Division                                             1
 Director, Southern Audit Division                                            1
 Director, Northern Audit Division                                            1
 Director, General Management Audit Division                                  1
Issue Area Team Leaders                                                      25
Income Maintenance Branch, Office of Management and Budget                    1
Chairman, Committee on Ways and Means                                         1
Ranking Minority Member, Committee on Ways and Means                          1
Chief of Staff, Committee on Ways and Means                                   1
Chairman, Subcommittee on Social Security                                     2
Ranking Minority Member, Subcommittee on Social Security                      1
Majority Staff Director, Subcommittee on Social Security                      2
Minority Staff Director, Subcommittee on Social Security                      2
Chairman, Subcommittee on Human Resources                                     1
Ranking Minority Member, Subcommittee on Human Resources                      1
Chairman, Committee on Budget, House of Representatives                       1
Ranking Minority Member, Committee on Budget, House of Representatives        1
Chairman, Committee on Government Reform and Oversight                        1
Ranking Minority Member, Committee on Government Reform and Oversight         1
Chairman, Committee on Governmental Affairs                                   1
Ranking Minority Member, Committee on Governmental Affairs                    1
Chairman, Committee on Appropriations, House of Representatives               1
                                                                             Page 2

Ranking Minority Member, Committee on Appropriations,
 House of Representatives                                                        1
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations,
 House of Representatives                                                        1
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 House of Representatives                                                        1
Chairman, Committee on Appropriations, U.S. Senate                               1
Ranking Minority Member, Committee on Appropriations, U.S. Senate                1
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations, U.S. Senate                  1
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 U.S. Senate                                                                     1
Chairman, Committee on Finance                                                   1
Ranking Minority Member, Committee on Finance                                    1
Chairman, Subcommittee on Social Security and Family Policy                      1
Ranking Minority Member, Subcommittee on Social Security and Family Policy       1
Chairman, Senate Special Committee on Aging                                      1
Ranking Minority Member, Senate Special Committee on Aging                       1
Vice Chairman, Subcommittee on Government Management Information
  and Technology                                                                 1
President, National Council of Social Security Management Associations,
  Incorporated                                                                   1
Treasurer, National Council of Social Security Management Associations,
  Incorporated                                                                   1
Social Security Advisory Board                                                   1
AFGE General Committee                                                           9
President, Federal Managers Association                                          1
Regional Public Affairs Officer                                                  1


Total                                                                           97
                   Overview of the Office of the Inspector General

                                         Office of Audit

The Office of Audit (OA) conducts comprehensive financial and performance audits of the
Social Security Administration’s (SSA) programs and makes recommendations to ensure that
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers Act of 1990, assess whether SSA’s financial statements fairly present
the Agency’s financial position, results of operations, and cash flow. Performance audits review
the economy, efficiency, and effectiveness of SSA’s programs. OA also conducts short-term
management and program evaluations focused on issues of concern to SSA, Congress, and the
general public. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency.

                                Office of Executive Operations

The Office of Executive Operations (OEO) provides four functions for the Office of the
Inspector General (OIG) – administrative support, strategic planning, quality assurance, and
public affairs. OEO supports the OIG components by providing information resources
management; systems security; and the coordination of budget, procurement,
telecommunications, facilities and equipment, and human resources. In addition, this Office
coordinates and is responsible for the OIG’s strategic planning function and the development and
implementation of performance measures required by the Government Performance and Results
Act. The quality assurance division performs internal reviews to ensure that OIG offices
nationwide hold themselves to the same rigorous standards that we expect from the Agency.
This division also conducts employee investigations within OIG. The public affairs team
communicates OIG’s planned and current activities and the results to the Commissioner and
Congress, as well as other entities.

                                     Office of Investigations

The Office of Investigations (OI) conducts and coordinates investigative activity related to fraud,
waste, abuse, and mismanagement of SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representative payees, third
parties, and by SSA employees in the performance of their duties. OI also conducts joint
investigations with other Federal, State, and local law enforcement agencies.

                               Counsel to the Inspector General

The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: 1) statutes, regulations, legislation, and policy directives
governing the administration of SSA’s programs; 2) investigative procedures and techniques;
and 3) legal implications and conclusions to be drawn from audit and investigative material
produced by the OIG. The Counsel’s office also administers the civil monetary penalty program.
